 U.S. Agency for
  I NTERNATIONAL
   D EVELOPMENT

Washington, D.C.


May 14, 2001

MEMORANDUM FOR A-CIO, Peter Benedict

FROM: IG/A/ITSA, Melinda G. Dempsey

SUBJECT: Audit of USAID’s Compliance with Internet Privacy Policies
         (Report No. A-000-01- 001-P)

This memorandum is our report on the subject audit. Thank you for the level
of importance you attach to individual privacy issues. Your comments on
the draft report are included in Appendix II.

This report contains two recommendations for your action. Based on your
comments, management decisions have been reached on these
recommendations. The Office of Management Planning and Innovation
(M/MPI/MIC) will make a determination of final action for these
recommendations when planned corrective actions are completed.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                      Page 1 of 13
Table of   Summary of Results                                           3
Contents
 B         Background                                                   3

           Audit Objectives                                             4

           Audit Findings                                               5

           Does USAID collect or enter into agreements with third
           parties to obtain personally identifying information about
           individuals who access the Agency’s website?                 5

           Does USAID post privacy notices and restrict the use of
           Internet cookies in accordance with Office of Management
           and Budget Memoranda M-99-18 and M-00-13?                    5

           Management Comments and Our Evaluation                       9

           Appendix I - Scope and Methodology                           10

           Appendix II - Management Comments                            12




                                                                        Page 2 of 13
Summary of   This report discusses how the agency collects personally identifying
Results      information and describes our assessment of USAID’s compliance with the
             Office of Management and Budget’s requirements to post privacy policies
             on websites and to limit use of Internet cookies 1 , except under certain
             conditions. The specific objectives of the audit are to determine whether:
             (1) USAID collects through its own efforts or obtains from third parties
             personally identifying information about visitors to its public website
             [page 5] and (2) USAID complies with federal guidance related to protecting
             Internet users’ privacy when visiting federal websites [page 5].

             Our audit work documented that USAID does collect personally identifying
             information from website visitors [page 5]. In addition, based on
             management representations, USAID has not entered into any agreements
             with third parties to obtain personally identifying information related to
             website users’ viewing habits [page 5].

             Our work also indicated that USAID does comply with federal regulations
             that require agencies to post privacy notices on their websites [page 5].
             However, USAID does not fully comply with requirements that govern the
             use of Internet cookies [page 6], nor does it adequately safeguard personal
             information collected [page 8].

             The acting Chief Information Officer (CIO) has agreed with the report and is
             planning to implement both recommendations [page 9].


Background   As the Internet pervades the personal and work lives of Americans, greater
             focus is placed on protecting personal privacy. The Congress has long
             recognized the importance of privacy in American society. The Privacy Act
             of 1974 requires that federal agencies protect an individual’s right to privacy
             when they collect personal information. This concern was continued by
             enactment of the Treasury and General Appropriations Act of 2001 which
             states that:

                      Not later than 60 days after the date of enactment of this
                      Act, the Inspector General of each department or agency
                      shall submit to Congress a report that discloses any
                      activity of the applicable department or agency relating to--



                      1
                        A cookie is a text data file that is sent from a web server to a web browser when the
             browser accesses a web page. Cookies allow the web server to recognize a user who returns
             to a particular site. Cookies can be used to track on-line purchases or to maintain and serve
             customized web pages.



                                                                                                Page 3 of 13
                                  (1) the collection or review of singular data, or the creation
                                      of aggregate lists that include personally identifiable
                                      information, about individuals who access any Internet
                                      site of the department or agency; and
                                  (2) entering into agreements with third parties, including
                                      other government agencies, to collect, review, or obtain
                                      aggregate lists or singular data containing personally
                                      identifiable information relating to any individual's access
                                      or viewing habits for governmental and nongovernmental
                                      Internet sites.

                   The Office of Management and Budget (OMB) has provided specific
                   guidance to agencies to help protect privacy. This guidance is primarily in
                   the form of two memoranda to agencies. The first, Memorandum M-99-18,
                   provides criteria for posting privacy notices on federal websites. The
                   second, Memorandum M-00-13, addresses Internet cookies, text or data files
                   stored on a visitor’s computer. The memorandum provides that cookies may
                   not be created by a federal website unless certain requirements are met.

                   At USAID several offices have responsibilities over USAID’s website. The
                   Chief Information Officer (CIO) is responsible for directing, managing, and
                   providing policy guidance and oversight with respect to all USAID
                   information resource management activities. The Bureau for Legislative and
                   Public Affairs (LPA) is responsible for the review of USAID produced or
                   funded materials available to the public on the Internet. The Bureau for
                   Management, Office of Information Resources Management (M/IRM) is
                   responsible for operating USAID’s external website.



Audit Objectives   The Congress, as part of Treasury and General Appropriations Act of 2001,
                   mandated the first objective of this audit. The second objective was to test
                   agency compliance with existing federal guidance. As a result, the
                   objectives of this audit were to answer the following questions:

                   Does USAID collect or enter into agreements with third parties to
                   obtain personally identifying information about individuals who access
                   the Agency’s website?

                   Does USAID post privacy notices and restrict the use of Internet cookies
                   in accordance with Office of Management and Budget Memoranda
                   M-99-18 and M-00-13?

                   A detailed discussion of our scope and methodology is presented in
                   Appendix I.




                                                                                           Page 4 of 13
Audit Findings   Does USAID collect or enter into agreements with third parties to
                 obtain personally identifying information about individuals who
                 access the Agency’s website?

                 USAID collects limited personal information about visitors and is unaware
                 of any third party agreements to collect personal information. Information
                 such as a visitor’s computer Internet address and date and time of access
                 are collected in website log files. Visitor names, e-mail addresses, and
                 any other information that the visitor provides is also solicited and
                 collected from visitors who have comments or suggestions. USAID
                 discloses the types of information collected and how it will be used in
                 privacy notices posted on the website. Privacy notices are discussed in
                 more detail under the second audit objective below.

                 According to USAID management, USAID does not have any agreements
                 with third parties to collect, review, or obtain aggregate lists or singular data
                 containing personally identifiable information relating to any individual’s
                 access or viewing habits for its Internet sites. We consider the likelihood
                 that USAID has agreements of this nature to be low, but the cost of extensive
                 verification would be high because of the many contracts USAID has with
                 partners and vendors. Accordingly, we limited our verification efforts to
                 discussions with management responsible for the USAID privacy program
                 and with management responsible for website content.

                 Does USAID post privacy notices and restrict the use of Internet
                 cookies in accordance with Office of Management and Budget
                 Memoranda M-99-18 and M-00-13?

                 USAID includes a privacy notice on its websites that complies with OMB
                 Memorandum M-99-18. However, USAID does not fully comply with
                 OMB Memorandum M-00-13 requirements on using cookies on federal
                 websites. These two issues are detailed in the following sections of this
                 report.

                 USAID Does Comply with OMB’s Requirements on Privacy Notices

                 OMB Memorandum M-99-18 requires agencies to post privacy policies in
                 accordance with the following.

                     •   Privacy policies must be posted on agency websites, at major entry
                         points to sites, and on any page where substantial personal
                         information is collected from the public;




                                                                                           Page 5 of 13
   •   Policies must clearly and concisely inform visitors to the site what
       information the agency collects about individuals, why the
       information is collected, and how the information is used; and

   •   Policies must be clearly labeled and easily accessed.

Specifically, links to USAID’s privacy notice are prominently posted on
the main webpage and on other major points of entry to USAID’s website.
The notice informs visitors to the site that USAID collects domain name,
the date and time the site was accessed, and the Internet address of the
website from which the visitor was linked directly to USAID’s site. The
policy outlines that the Agency collects statistics on which webpages
visitor's view at the website. It also clearly indicates that information is
collected for site management and, in the case of suspected unauthorized
activity, for law enforcement and possible criminal prosecution. Visitors
are also informed that personally identifying information is collected when
sending an e-mail message. This information is then used to respond to
comments or suggestions. Finally, the privacy notices policies are clearly
labeled and easily accessed.

USAID Does Not Fully Comply with OMB’s Requirements on
Cookies

OMB Memorandum M-00-13 states that “the presumption should be that
‘cookies’ will not be used” on federal websites. Nevertheless, if cookies are
used, the following criteria must be met.

   •   The site must give clear and conspicuous notice that cookies
       are used;

   •   A compelling need to gather data on the site must exist;

   •   Appropriate and publicly disclosed privacy safeguards must
       be in place to protect any information derived from cookies;
       and

   •   The agency head must give personal approval for the use of
       the cookie.

USAID was aware of the requirements of M-00-13 and was attempting to
comply with the guidance. However, when we searched a copy of USAID’s
website, we found two webpages that caused cookies to be created. Both
cookies did not meet all the conditions for use under the OMB’s
memorandum.




                                                                       Page 6 of 13
In the first instance, USAID developed an application, which used cookies to
collect and store information that can be associated with a particular person.
USAID did not intend for the application that created the cookie to be
available to the public. However, in order to demonstrate the functionality
of the application to a remote party, USAID placed the application on the
public website but did not provide any links or indication to the public that it
existed. While on the website, the application could only have been
accessed by visitors who knew its webpage address. Notwithstanding that
the application was not publicized nor readily available to the public, it was
accessible on the website and the cookie it created did not comply with any
of the requirements of OMB M-00-13.

In the second instance, a USAID application, which allowed visitors to
search for past contract awards information, created a cookie on a site
visitor’s computer. USAID disclosed the use of this cookie in the web
page’s privacy notice but did not attempt to ensure that the other conditions
of OMB M-00-13 were met before using the cookie. At the time,
management did not believe that this particular cookie was subject to the
OMB memorandum. In practice, a cookie can be classified as either a
“session” or as a “persistent” cookie. Session cookies are not saved on a
visitor’s computer after disconnecting from the Internet. Persistent cookies
remain on a visitor’s computer indefinitely or until they are deleted. After
issuing M-00-13, OMB clarified its position on using cookies to state that the
four conditions cited above applied only to using persistent cookies 2 .
USAID mistakenly believed that the cookie created by this application was a
session cookie and therefore not subject to M-00-13.

Subsequent to our audit, USAID management has removed the sources of
both cookies from the website. The previously cited conditions resulted
because procedures and monitoring activities are not in place to ensure
complete compliance with the policy. By USAID not complying with the
policy, USAID’s visitors to the website may not have been aware that
information was collected about them, how this information was being used,
and how this information was being safeguarded.

        Recommendation No. 1: We recommend that the Chief
        Information Officer require USAID’s, Office of
        Information Resources Management to periodically
        search USAID’s external website for cookies that do not
        comply with OMB M-00-13.



        2
          See September 5, 2000, letter from John T. Spotilla, Administrator, Office of
Information and Regulatory Affairs, Office of Management and Budget to Roger Baker, Chief
Information Officer, U.S. Department of Commerce.



                                                                             Page 7 of 13
USAID Does Not Adequately Safeguard Personal Information

OMB Memorandum M-00-13’s third requirement, that appropriate privacy
safeguards must be in place to protect any information derived from cookies,
can be extended to information solicited from visitors. Personal information
collected on USAID websites is protected by operating system security on
the web server. However, access to this server is not restricted by the
agency’s firewall, a combination of hardware and software specifically
designed to provide a greater level of security to computer networks.
Firewalls are desirable to protect sensitive data and networks from intrusion
and unauthorized use.

USAID solicits visitor feedback on the website via forms. Forms are web
pages that include fields for the user to voluntarily provide information to the
web server. The form collects the visitor’s name and address and any other
personally identifiable information that is typed into the form by the site
visitor. This information is logged in a file and is used to respond to visitor
inquiries. Presently, USAID does not have a policy, together with
procedures and monitoring activities, to ensure that personally identifying
information collected by web servers or applications is adequately
safeguarded.

        Recommendation No. 2: We recommend that the Chief
        Information Officer require that security policies,
        procedures, and monitoring activities are formulated to
        ensure that personally identifying information collected
        by web servers or applications is adequately safeguarded.




                                                                         Page 8 of 13
Management       USAID removed the cookies that did not comply with OMB-00-13 and
Comments and     removed personally identifying information from the external web servers.
Our Evaluation   The acting Chief Information Officer has agreed with the report and is
                 planning to implement both recommendations. Consequently,
                 management decisions have been reached on Recommendation Nos. 1
                 and 2.

                 Management’s complete response is included in this report in Appendix II.




                                                                                    Page 9 of 13
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Office of the Inspector General in Washington conducted an audit, in
              accordance with generally accepted government auditing standards, to
              determine if USAID was collecting, reviewing, or creating aggregate lists
              that include personally identifying information about individuals who access
              the Agency’s website. The audit encompassed all files and applications that
              comprised USAID’s external website located at “www.usaid.gov” as of
              January 20, 2001. Because Internet cookies can be used to collect personally
              identifying information, the audit also determined whether the cookies being
              used on the website were used in accordance with OMB Memorandum
              M-00-13. The audit reviewed privacy notices on the website for compliance
              with OMB Memorandum M-99-18. The audit was conducted from January
              19, 2001, through March 28, 2001.

              Methodology

              To answer the question raised in the first audit objective, we held
              discussions with the following USAID bureaus : Bureau for Legislative
              and Public Affairs (LPA); Bureau for Management, Office of Information
              Resources Management (M/IRM); and Bureau for Management, Office of
              Assistant Administrator (M/AA). The Deputy Assistant Administrator
              serves as the Chief Information Officer.

              In considering the likelihood that USAID would enter into an agreement
              with a third party to obtain personally identifying information, we noted
              targeting advertising, identification of personal assets, and identification of
              other information to support an entitlement or a claim to be factors that could
              motivate an agency to collect personally identifying information. We
              consider the likelihood that USAID has agreements of this nature to be low,
              but the cost of extensive verification would be high because of the many
              contracts USAID has with partners and vendors. Accordingly, we limited
              our verification efforts to discussions with management responsible for the
              USAID privacy program and with management responsible for website
              content.

              We obtained a copy of all the USAID web files from the web server and
              from the application server. These files were searched using the “Find
              File” functionality included with Windows 95. We searched for syntax
              that would have been used to set cookies using the following
              programming languages: Cold Fusion, Java, JavaScript, PERL, Active
              Server Pages, and VBScript.




                                                                                     Page 10 of 13
This search covered all files that were on the web server as of January 20,
2001. We set our materiality threshold for the audit as any occurrence of a
non-compliant cookie.

USAID management gave us a copy of the Internet files on compact disc
as of January 20, 2001. Due to the number and size of the data and due to
the fact that we received the disc after January 20, 2001, we relied on
management’s representation that the discs contain a complete set of the
actual files that were available to the public. To provide assurance that we
received all files, we judgmentally selected 30 links off the main webpage.
Without exception, the links were found in the files provided on the discs.

We reviewed security logs and web server logs to note whether personally
identifying information was being collected in the logs. Discussions were
held with M/IRM on its policies and procedures for operating websites and
using information obtained from users of the sites.

To answer the question raised by the second objective we reviewed any
cookies that we found on the website for compliance with OMB
Memorandum M-00-13, and we reviewed the website policy notices for
compliance with OMB Memorandum M-99-18.




                                                                    Page 11 of 13
                                                                                                                      Appendix II


Management
Comments




U.S. AGENCY FOR                                                                       May 11, 2001
INTERNATIONAL
DEVELOPMENT




             T0:              OIG/A/ITSA, Melinda Dempsey
             THROUGH:         A-AA/M, Richard C. Nygard
             FROM:            A-CIO, Peter Benedict
             SUBJECT: Management Comments on Draft "Audit of USAID's Compliance
             with Internet Privacy Policies"
                   USAID management takes the issue of protecting individual
             privacy seriously, and has taken prompt action to increase the
             already substantial compliance with the OMB guidance on cookies and
             protection of personally identifying information. Before this audit
             started, the CIO was in the process of establishing an intensified
             program of privacy protection. Efforts to protect individual privacy
             will continue.
                   Regarding Recommendation No. 1: "We recommend that the Chief
             Information Officer require USAID's, Office of Information Resources
             Management to periodically search USAID's external website for cookies
             that do not comply
             with OMB M-00-13."
                   We acknowledge that the OIG found two instances of persistent
             cookies on USAID managed web sites, which were promptly removed, once
             found. Even though this number was low, we consider that any level of
             non-compliance on this issue requires action.
                   The CIO agrees to task appropriate staff to periodically search
             USAID's identified1 external websites for cookies that do not comply
             with OMB M-00-13. We plan


             _________________
             1
              USAID funds a wide range of web-site operated by contractors. Many are funded by USAID missions overseas. At present
             we do not have a complete inventory of these sites. Within he limit of available funds the CIO will work with partners in
             USAID to identify these sites so that the necessary search for cookies can be conducted.




                                                                                                                      Page 12 of 13
to close the recommendation when the process for this search is
established and in operation.
     Regarding Recommendation No. 2: "We recommend that the Chief
Information Officer require that security policies, procedures, and
monitoring activities are formulated to ensure that personally
identifying information collected by web servers or applications is
adequately safeguarded".
   We agree that personally sensitive information was stored on a
server that was effectively outside USAID's firewall protections, and
that this was not approved as appropriate.
     To ensure the immediate protection of personally identifying
information while Recommendation 2 is implemented, all such personally
identifying information has been removed from the external web server
where its security was in question.
     The CIO agrees to require the development of security policies,
procedures, and monitoring activities to ensure that personally
identifying information collected from the public is adequately
safeguarded. When these are approved and in operation, we plan to
close this recommendation.




                                                             Page 13 of 13
